                                                    SENSITIVE BUT UNCLASSIFIED



    A
                                              United States Department of State
                                           and the Broadcasting Board of Governors
                                                  Office of Inspector General
Office of Inspector General


                                                 Office of Inspections

                                                     Inspection of
                                                 Embassy Vienna, Austria

                                            Report Number ISP-I-12-16A, March 2012




                                                                Important Notice

                              This report is intended solely for the official use of the Department of State or the
                              Broadcasting Board of Governors, or any agency or organization receiving a copy
                              directly from the Office of Inspector General. No secondary distribution may be made,
                              in whole or in part, outside the Department of State or the Broadcasting Board of
                              Governors, by them or by other agencies of organizations, without prior authorization
                              by the Inspector General. Public availability of the document will be determined by the
                              Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of this report
                              may result in criminal, civil, or administrative penalties.




                                                    SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2011 by the Council of Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General for the
U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

   •   Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an office or mission are being adequately coordinated.

   •   Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

   •   Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instance of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                           i
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Harold W. Geisel
                                              Deputy Inspector General




                                           ii
                              SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


                                 Table of Contents
Key Judgments                                                      1
Context                                                            3
Executive Direction                                                4
Policy and Program Implementation                                  7
   Reporting, Analysis, and Advocacy                               7
   Law Enforcement and Narcotics Affairs                          10
   Refugee Affairs                                                11
   Public Diplomacy                                               11
   Consular Operations                                            15
Resource Management                                               19
   Restaurant Facility                                            19
International Broadcasting Bureau’s Technical Monitoring Office   21
List of Recommendations                                           22
List of Informal Recommendations                                  24
Principal Officials                                               25
Abbreviations                                                     26




                                        iii
                            SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED


Key Judgments
    •     The Ambassador and deputy chief of mission (DCM) have forged productive relations
          with the Austrian Government and have significantly advanced the U.S. policy agenda.
          Their method of tying interagency working groups to Mission Strategic and Resource
          Plan (MSRP) objectives contributes to this success.

    •     The embassy’s public diplomacy, consular, and political/economic sections are
          overstaffed. In the management section, overstaffing exists in two areas and understaffing
          in another.

    •     Even though the Tri-Mission Vienna joint management office’s (JMO) service quality
          and timeliness meet established customer service standards, customers have been
          dissatisfied. As detailed in the OIG report, Inspection of the Tri-Mission Vienna Joint
          Management Office (March 2012), realigning responsibilities and developing direct
          communications with the JMO service providers should allay concerns that the office
          does not provide equal service to all of its customers.

    •     Washington consumers value the coverage, quality, and timeliness of the embassy’s
          political and economic reporting and analysis, which meet the needs and serve the
          interests of U.S. officials in formulating policy decisions.

    •     Interagency cooperation is strong in commercial promotion, political-military issues, and,
          most notably, law enforcement.

    •     The public diplomacy section engages the Ambassador and many embassy staff members
          in conducting outreach activities, including social media and low-cost cultural programs.
          The section needs to prioritize its work, focusing more on policy goals and targeted
          audiences.

    •     The well-run consular section provides excellent service.

    •     A robust security program serves the three Vienna missions equitably and well. The
          Ambassador and DCM show appropriate support for security requirements and meet
          regularly with staff members to keep them informed about all pending issues.

    •     The information management program is improving after a period when curtailments and
          extended staff vacancies led to poor service.

        All findings and recommendations in this report are based on conditions observed during
the on-site review and the standards and policies then in effect. The report does not comment at
length on areas where OIG did not identify problems that need to be corrected.

       The inspection took place in Washington, DC, between September 12 and 29, 2011, and
in Vienna, Austria, between October 3 and November 17, 2011.The members of the team were
(b) (6)

                                             1
                                SENSITIVE BUT UNCLASSIFIED
          SENSITIVE BUT UNCLASSIFIED

(b) (6)




                       2
          SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Context
       Slightly smaller than Maine, Austria has a population of approximately 8 million. As
elsewhere in Europe, the Austrian public remains skeptical of the United States and its role in the
world. The country’s traditional ethnic/linguistic homogeneity has been challenged in recent
years by shifting demographics, including a growing Muslim population and East European
migrants. Building public support for the United States is the embassy’s top MSRP goal.

        Vienna hosts numerous UN agencies, such as the International Atomic Energy Agency
and the UN Office of Drugs and Crime, as well as the Organization for Security and Cooperation
in Europe. It is also a hub for organized criminal activities, including trafficking in narcotics,
arms, and persons. The embassy has encouraged Austrian support for greater counterterrorism
and law enforcement cooperation, recently concluding bilateral agreements on combating
terrorism and serious crime, respectively.

        A member of the European Union (EU), Austria boasts one of Europe’s lowest
unemployment rates (4.4 percent in 2010). About half of all Austrian foreign direct investment is
concentrated in Central/Eastern/Southeastern Europe, making it a real economic player in the
region. A major goal of Embassy Vienna is supporting Austria’s role in promoting stability in the
region and beyond. Austria presently has command of European forces in Bosnia and a
significant presence in the North American Treaty Organization (NATO) operation in Kosovo. A
NATO Partnership for Peace member, Austria provided blanket over-flight clearances for NATO
aircraft participating in recent civilian protection operations in Libya. It also supports
peacekeeping operations and police training efforts in Afghanistan.

        With strong energy and banking sectors, Austria has played an active role in promoting
European energy security, particularly with respect to the proposed Nabucco gas pipeline, that is
consistent with the U.S. goal to foster cooperation on energy security. Trade promotion is
another strategic goal for Embassy Vienna. The United States ranks as Austria’s sixth largest
trade partner and third largest foreign investor.

        Staffing for Embassy Vienna consists of 141 Department of State (Department) U.S.
direct-hire employees, 29 other-agency direct hires, and 264 locally employed (LE) staff
members. The JMO reports to the embassy’s DCM and provides management services to all
three missions.




                                           3
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Executive Direction
       Embassy Vienna effectively advances U.S. foreign policy objectives with Austria. It has
formed productive links with senior Austrian officials, including in the most senior ranks of
government. As a result, the embassy has won Austrian support for several key goals that
previously appeared unattainable.

        Specifically, embassy leadership developed a strategy to improve U.S.-Austrian
cooperation on several law enforcement issues that constituted one of the embassy’s top
substantive priorities; the Ambassador and DCM then deployed a range of successful approaches,
including public appearances that shaped opinion and contact with decisionmakers. The
Ambassador concluded the data-sharing agreements on crime and terrorism by using his access at
the top of Austria’s power structure. Similarly, the Ambassador and DCM and their team
succeeded in reversing the Austrian stance on sanctions against Iran, winning unexpected support
for the U.S. position. The leadership team also significantly improved bilateral cooperation on
handling the proceeds from joint, drug-related cases and enhanced the U.S.-Austrian dialogue on
issues related to the Balkans. The DCM has brought his long Balkans experience to bear in this
dialogue, and the Ambassador has traveled to the region and encouraged Austrian banks to sustain
their Balkan operations.

         The inspection team commends the Ambassador for cultivating excellent relations with a
range of senior Austrian officials and private sector leaders. He is widely viewed in the embassy
as a masterful networker whose interpersonal skills have persuaded his interlocutors to value
their interactions with him and seek him out. The Ambassador initiated an effort to connect with
Austrian members of the European Parliament, meeting with them in Brussels or Strasbourg to
discuss U.S. policy positions. Working in concert with the U.S. Ambassador to the EU, he has
produced measurable results and provided a model for others to emulate.

        The Ambassador and DCM participate in a range of public diplomacy activities,
including short-term press events focused on countering negative Austrian views of U.S. policies
and long-term cultural and educational exchange programs designed to build enduring support
for the United States. Both are accomplished public speakers. The Ambassador has acquired an
introductory facility in German, and the DCM uses his fluent language skills spontaneously. The
Ambassador has built good will with the Austrian public by appearing at highly visible cultural
and sporting events and other prominent venues.

        Embassy Vienna’s representation work is good and is synchronized with strategic
objectives in the MSRP. The Ambassador reaches out to contacts frequently through
representation functions of many kinds and sizes. The DCM has initiated a series of at-home
concerts featuring U.S. artists. These events enable embassy staff to cultivate local contacts in an
environment that Austrians prize, making it easier to discuss controversial subjects. All elements
of Embassy Vienna reported that embassy leadership supports U.S. Government visitors and
interactions with Austrian contacts.

       The Ambassador and DCM divide work in the traditional way, with the Ambassador
handling senior contact work and the DCM concentrating more on internal issues, while
maintaining appropriate outside contacts at his level—an important function in Austria’s
                                                 4
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

hierarchical society. Although the Ambassador and DCM have very different strengths and their
partnership has taken some time to evolve, the DCM has now become an alter ego for the
Ambassador. Both benefit from the confidence that exists between them and would do well to
foster an even more open exchange of perspectives. The division of labor is appropriate, and the
front office functions smoothly in most cases. Some embassy staff members would prefer a less
formal handling of paperwork and a more open front office atmosphere; however, given the
breadth and complexity of issues confronting the front office, there is no need to change current
procedures significantly.

        Embassy leadership merits praise for developing interagency working groups that are tied
to each MSRP objective. Initiated by the DCM and operating under his direction, these working
groups not only account quarterly for concrete progress on each goal but also strategize about
next steps. This mechanism has invigorated embassy thinking and actions, resulting in tangible
outcomes. Interagency relations at Embassy Vienna are also exemplary: one officer spoke for
many in labeling interagency relations as the best he had seen in 20 years in the Foreign Service.

        As detailed in the OIG report, Inspection of the Tri-Mission Vienna Joint Management
Office (March 2012), supervising the bilateral embassy’s provision of management services to
the embassy community and the other two U.S. missions in Vienna—the U.S. Mission to the
Organization for Security and Cooperation in Europe (USOSCE) and the U.S. Mission to
International Organizations in Vienna (UNVIE)—has been challenging. The embassy team can
take pride in supporting the Bureau of Overseas Buildings Operations’ search for long-overdue,
new space for USOSCE offices. The Ambassador’s private sector experience and insights, and
the DCM’s interventions in Washington have helped this process. On more day-to-day
management services, inspectors heard criticism from many sectors and the other two missions;
they observed that relations between the DCM and the management section, while better than
they were in the past, could usefully improve. The Ambassador and DCM have worked to
improve this relationship, but management services still absorb a disproportionate share of front
office attention. The inspection team counseled that all involved, with the Ambassador’s
oversight, would do well to make a fresh start at addressing the built-in difficulties of servicing
three missions.

         Although Embassy Vienna is capably led and well staffed overall and is fulfilling its
functions commendably, the OIG team found several instances where more long-range planning
would benefit operations. The consular, public diplomacy, management, and political/economic
affairs sections of this report describe examples of overstaffing, and the management section of
this report addresses how space planning would yield efficiencies.

       Embassy Vienna supervises a robust security program that serves the three Vienna
missions equitably and well. The Ambassador and DCM show appropriate support for security
requirements, meet regularly with staff, and keep themselves informed about all pending issues.
(See the classified annex to this report for more details.)

         As in other venerable first-world capitals, morale at Embassy Vienna is mixed. The
absence of life-threatening emergencies or hardships and the presence of a wealth of recreational
activities tend to weaken community cohesion, a phenomenon that becomes even more striking
in a tri-mission environment. The Ambassador counteracts these impediments with his proactive
                                           5
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

approach to community activities, both professional and social. The Ambassador models full
respect for Equal Employment Opportunity (EEO) principles.

        Several adjustments will improve front office oversight of embassy operations. For
example, the leadership team needs to maintain required visa adjudication reviews and exert
more thorough control over the U.S. employees association, whose problems are addressed in the
management controls section of this report. In addition, the Ambassador, and especially the
DCM, need to circulate among the embassy buildings and offices more frequently. Placing a
higher priority on personal connections with the staff will (b) (5)        inspire higher
productivity, and acquaint embassy leadership more fully with their colleagues’ concerns and
issues.

         The career development program for first- and second-tour officers and specialists needs
reinvigorating. The Ambassador and DCM agree. The DCM has conducted some meetings with
first- and second-tour officers and specialists as a group, but the present program does not
provide the full range of opportunities that would constitute a comprehensive career development
matrix.

        The first- and second-tour personnel formed an informal association that includes their
counterparts at the UNVIE and USOSCE missions. Some employees feel confined to the duties
of their sections and do not experience the full scope of Foreign Service activities. Only very
rarely are opportunities available to participate in the work of other embassy sections or the other
missions in Vienna. Although first- and second-tour officers and specialists from some sections
are receiving mentoring and guidance on a day-to-day basis from their direct supervisors, others
are not, and all believe their careers will benefit from wider access to senior officers.

         The Ambassador and DCM welcomed a number of suggestions from the OIG team for a
more comprehensive, entry-level career development program that fulfills the Foreign Service
Director General’s expectations, transmitted worldwide on November 22, 2010, as State 120467,
to conduct robust mentoring and professional development of entry-level Foreign Service
employees. They pledged to collaborate with the other missions to seek short-term opportunities
for first- and second-tour personnel to work in the sister missions.

Recommendation 1: Embassy Vienna should implement a plan to provide first- and second-
tour officers and specialists with regular mentoring sessions and well-defined opportunities to
gain experience with government-to-government relations, support official visits, speak in public
fora, produce written reports, and participate in representational events. (Action: Embassy
Vienna)




                                           6
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Policy and Program Implementation
Reporting, Analysis, and Advocacy

       Embassy Vienna reports well on key developments. Its advocacy was instrumental in
concluding two agreements in 2011: one on information sharing related to terrorism and another
on combating corruption and serious crime. The embassy also closely engaged the Austrian
Parliament in the ratification process to allow these agreements to enter into force.

         Political and economic reporting aligns with the embassy’s strategic goals, including
combating crime and terrorism, strengthening Austria’s contributions to regional and global
stability, and enhancing European energy security. Embassy reporting, while succinct and
consisting mostly of spot reports, usually draws upon multiple sources. Reporting typically
provides Washington users with useful context and commentary, as well as biographical
information on key figures. Recent examples include reports on European financial issues,
nuclear energy, and climate change, as well as several reports on Austria’s connections to the
evolving situations in Libya and Syria. Washington consumers give embassy reporting high
marks for timeliness and responsiveness and for anticipating Washington’s needs for specific
information. Embassy officers have made progress in restoring trust and key relationships that
were damaged by the Wikileaks disclosures.

       The embassy usefully has established interagency working groups for each of the five
substantive goals in its MSRP. The groups meet quarterly to review progress and plan activities.
The DCM chairs these working groups, which in turn helps the Ambassador fulfill his oversight
and coordination responsibilities.

        The embassy produced few analytical reports, although the reporting plan for FY 2012
projects more analysis. A few reports were coordinated with other U.S. missions in the region,
such as with Embassy Ljubljana on minority language rights. Reporting on Austria’s role in the
Balkans was sparse, given Austria’s proximity to and interests in the region and its contributions to
the Kosovo Force. Military reporting, however, complements embassy reporting on the Balkans.

Records Management

        The embassy makes productive use of regular emails to report on economic and political
developments. The embassy has not made good use of the record email function of the State
Messaging and Archive Retrieval Toolset software system. Record email is designed to archive
emails that should be preserved for the historical record, such as those relating to schedules for
visitors, ongoing steps taken in the implementation of programs, and the exchange of views on
policy-related matters. Prior to the inspection, the embassy was not transmitting its biweekly
economic report as record email; the section also did not send as record email the daily activity
report that conveys information on high-profile, breaking developments. Expanded use of record
email and a wider dissemination of email messages to other agencies will better satisfy
interagency consumers of these reports.

       Informal Recommendation 1: Embassy Vienna should make greater use of the State
       Messaging and Archive Retrieval Toolset record email function.
                                             7
                           SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Political/Economic Section

       The counselor heads a combined political/economic section. He is a trusted advisor to the
DCM and Ambassador, and his staff and others in the embassy praise his helpfulness and
guidance on policy matters. The counselor encourages staff members to express their views and
voice dissenting opinions. The work environment is collegial and collaborative. Morale is good
among U.S. staff. Section officers regularly speak German when they conduct business with
government officials and engage in public outreach.

        The counselor and other section staff work closely with the Defense attaché office on
political-military affairs to promote Austrian support of Afghanistan and a continued role in
Kosovo. The section also cooperates with the embassy’s Office of Defense Cooperation in
promoting military sales opportunities. The political unit chief is the coordinator for the working
group that promotes increased Austrian contributions to regional and global security. The
economic officer coordinates a working group on energy and the environment that promotes the
United States as a responsible global steward, lobbies for constructive Austrian climate and
energy policies, and promotes U.S. products and services in these fields. Austria has major oil
and gas distribution hubs that service the continent. One of the largest European oil and gas
firms, OMV Group, is a key partner in the Nabucco gas pipeline project that seeks to bring
Caspian Basin gas to the European market, enhancing energy security. Embassy contacts in this
field are excellent, and its reporting has provided a valuable perspective on this important energy
security initiative.

        The section’s four LE staff members are divided equally between political and economic
areas, and their expertise is well regarded. They draft most mandated reports and contribute to
spot and analytical reports. Drafts prepared by LE staff are frequently incorporated into classified
reports to which LE staff does not have access. Better feedback on the section’s LE staff
contributions would contribute to their skills development and professional growth. (b) (5)


       Informal Recommendation 2: Embassy Vienna should provide locally employed staff
       with the unclassified portions of transmitted classified cables that contain text that locally
       employed staff members have drafted.

Rightsizing

        In an effort to reduce stovepiping and achieve greater efficiencies, local employees in the
section have responsibilities outside their areas of political or economic specialization. The
efficiencies from expanding such cross-training could enable the section to reduce the number of
LE staff members in the section from four to three, resulting in annual cost savings of $210,000.
The incumbent in position number N21010 will be ready to retire in the near future. The section
should begin cross-training now, making sure that the three-member staff will be able to handle
all required tasks by the time of his retirement.

Recommendation 2: Embassy Vienna should eliminate position number N21010 in the
political/economic section when the incumbent retires. (Action: Embassy Vienna)


                                           8
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        The political/economic section is attentive to reducing costs and operating more
efficiently. It has reduced its subscription costs by 50 percent over the past 2 years and plans to
discontinue four more subscriptions that will not damage section performance. The section could
realize additional savings without impairing its effectiveness by cutting use of the Austrian Press
Agency, which duplicates other media sources, to realize annual cost savings of $24,000.

       Informal Recommendation 3: Embassy Vienna should eliminate the political/economic
       section’s subscription to the Austrian Press Agency.

Leahy Human Rights Vetting

       The political/economic section is responsible for coordinating the Leahy vetting process.
The section issued embassy-wide guidance on Leahy procedures in 2011 and plans to do so
annually to promote compliance. The section did not complete Leahy vetting in 2011, because a
newly arrived employee was still learning how to operate the Department’s international vetting
and security tracking database.

       Informal Recommendation 4: Embassy Vienna should incorporate the international
       vetting and security tracking system user’s guide into its procedures for Leahy vetting
       and train the designated officers responsible for Leahy vetting on use of this database.

Trade and Commercial Advocacy

        The United States is Austria’s sixth largest trading partner and the third largest source of
foreign direct investment. Total trade between Austria and the United States in 2010 was $11 billion,
of which $4 billion were U.S. exports. The Ambassador and DCM often make their residences
available for representational events to promote U.S. commercial interests. The political/economic
section partners closely with the commercial section on trade and investment advocacy. Local
employees in the political/economic and commercial sections work together cooperatively. There is
an ongoing commercial dispute in Austria related to the theft of intellectual property from a U.S.
firm. The person convicted in Austrian court had shared the stolen property with a Chinese
company. Washington consumers valued embassy reporting on this case, which has attracted
attention in the U.S. media.

        The Country Commercial Guide aligns well with the MSRP goals of promoting U.S.
products and services. The commercial counselor chairs the embassy’s working group on trade
and investment, which has the ambitious objective of doubling U.S. exports to Austria between
2009 and 2014. U.S. exports grew by 27 percent in 2010 over the prior year, but current export
levels indicate a slackening in growth, and the mission’s objective may no longer be realistic.
Volkswagen, BMW, and Mercedes-Benz have recently established manufacturing plants in the
United States. To supply those plants, three Austrian firms are investing in auto parts plants in
the United States that will employ 1,000 persons.

Environment, Science, Technology, and Health Affairs

     In the political/economic section, a professional associate has won praise from the
Ambassador and others for the high caliber of her reporting on environment, science, technology,
                                           9
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

and health. In addition, she has served as the principal coordinator in interactions with
Washington and the Austrian Government on privacy and data-sharing issues and in a dispute
over the screening of the U.S. diplomatic pouch. The embassy will seek to renew this position
when the incumbent departs in summer 2012. Professional associate positions, which are
analogous to entry-level Foreign Service officer positions, are centrally funded and do not
adversely affect mission budgets.

       Informal Recommendation 5: Embassy Vienna should present its case to the Bureau of
       European and Eurasian Affairs and the Bureau of Human Resources for continuing to
       fund the professional associate position.

Law Enforcement and Narcotics Affairs

       Communication and cooperation among law enforcement representatives are outstanding,
and there are good interpersonal relations between agency and section heads. The resident law
enforcement entities in the embassy include the regional security office, a legal attaché office, a
Drug Enforcement Administration attaché office, and the Department of Homeland Security’s
immigration and customs enforcement office and citizenship and immigration services office.
Some of the offices have regional responsibilities. The U.S. Secret Service attaché, accredited to
Austria but residing in Frankfurt, is in regular communication with colleagues in Vienna.

        Cooperation with Austrian law enforcement officials is strong but heretofore has been
handled on a case-by-case basis. The Austrian Federal Police and the Office for the Protection of
the Constitution and for Fighting Terrorism are the principal partners of U.S. law enforcement.
Cooperation has yielded positive results in the areas of cyber crime and has led to the capture of
fugitives, sex traffickers, and drug smugglers. With embassy support, the Austrian Parliament in
2010 passed legislation criminalizing participation in terrorist training; the Austrian authorities
already have detained suspects under this act. The Ambassador has actively supported
Department of Justice activities, including the sharing of U.S. experience in the use of sensitive
classified information in Austrian court proceedings.

       The DCM and often the Ambassador participate in monthly meetings of the law
enforcement working group. The DCM keeps the Ambassador informed of law enforcement
developments. The consular section uses the monthly meetings to fulfill Visas Viper reporting
requirements. The regional security officer records the minutes but does not distribute them.
Distributing minutes would enhance each office’s knowledge and solidify cooperative ties
among working group participants and is also consistent with sound management practice.

       Informal Recommendation 6: Embassy Vienna should distribute to law enforcement
       working group members the minutes of monthly meetings.

        The professional associate in the political/economic section participates in quarterly
meetings of the working group on crime and terrorism and earns praise for coordinating embassy
support for the negotiation of two key data-sharing accords. One is an arrangement that would
implement (on the U.S. side) the Department of Homeland Security Presidential directive
relating to sharing terrorism screening information. The other is an agreement on the prevention
of corruption and serious crime. These bilateral accords are key elements in combating crime and
                                          10
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

terrorism and are a Department of Homeland Security requirement for continued, visa-free travel
by Austrian tourists to the United States. Austria will implement the information-sharing
agreement after ratifying the agreement on prevention of corruption and serious crime, which has
been presented to the Austrian Parliament.

Refugee Affairs

        The Department established an admissions-focused regional refugee coordinator position
in Vienna in 2010 to cover refugee resettlement from the countries of the former Soviet Union
and Europe. Unlike most refugee affairs sections, the office in Vienna is located in the consular
section. The refugee coordinator is rated by the consular section chief, and the two officers work
well together.

        In Vienna, a Foreign Service officer who is experienced in refugee affairs oversees the
admissions processing at U.S. refugee centers in 19 countries. She also supervises refugee
assistance programs operated in Moscow. However, the refugee program in Vienna is limited to
admissions processing for Iranian religious minorities. The number of applicants applying to this
program has been decreasing in recent years, while the time required to process their applications
has increased, due to enhanced, worldwide refugee security screening measures adopted in 2010.
At the same time, refugee processing in other locations in Europe has increased, particularly at
two UN-operated emergency transit centers in Romania and Slovakia.

       Given the declining U.S.-bound refugee caseload in Vienna, the Bureau of Population,
Refugees, and Migration has begun assessing whether it would be more effective to move the
Foreign Service officer’s position to another location, from which refuge processing in Europe
could be covered more effectively. In addition, with the worldwide refugee processing of Iraqi
and other refugees being in flux and with changes in the relevant U.S. legislation, the Bureau is
continually examining how best to accomplish refugee processing.

Recommendation 3: The Bureau of Population, Refugees, and Migration should conduct a cost-
benefit analysis to determine whether position number 13001037 should be moved to a location
from which refugee processing in Europe and the countries of the former Soviet Union could be
accomplished more effectively and less expensively than at Embassy Vienna. (Action: PRM)

Public Diplomacy

         An experienced public affairs officer (PAO) supervises a wide range of public diplomacy
activities conducted by 12 local employees. The PAO, assistant PAO, and the rest of the section staff
have excellent relations with Austrian media and cultural figures, as well as with the embassy’s
executive office and section and agency heads. The Ambassador values public diplomacy outreach
as a critical embassy activity and is excellent at engaging the media in interviews. He also hosts or
participates in numerous U.S. cultural activities and thematic conferences. Embassy officers in all
sections serve as speakers for multiple audiences throughout Austria.

       The section’s programs encompass promoting journalistic studies; raising awareness of
human rights; hosting arts and literature events; and holding seminar discussions of U.S. social,
foreign, and security policies. The breadth of the programming highlights a shortcoming: the

                                          11
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

section is trying to do too much, including some programs that are appealing but not essential.
There is an embassy-wide, 6-month calendar of public diplomacy events, but it is difficult to
discern an overarching goal beyond “promoting America.”

        The section has not undertaken the necessary strategic planning for public diplomacy for
the year ahead. It has not conducted audience analyses to determine where to target its efforts,
and some public diplomacy staff members are duplicating one another’s efforts. For example,
there were more local employees at some events than needed. An embassy-hosted,
environmentally friendly fashion show is an example of embassy resources being expended on
events that do not plausibly advance core U.S. foreign policy themes. The section needs to
identify the most important bilateral issues and the most critical audiences, shape its public
diplomacy programming around those criteria, and eschew targets of opportunity that are less
compelling.

       Informal Recommendation 7: Embassy Vienna should develop a yearly schedule of
       public diplomacy activities based on topics, audiences, and institutions that have the
       highest priority.

Rightsizing

         Public diplomacy staffing costs are unsustainable and threaten to zero out funds for
programming. In FY 2012, LE staff expenses were more than 80 percent of the section’s
program budget. Without action, in FY 2013 they will exceed 95 percent. Vienna’s LE staffing
level is considerably higher than at similar European embassies, where the norm is eight or nine.
Vienna has 12. In reaction to written guidance from the Department to redress the situation, the
section has reduced some LE staff work schedules by 15 to 20 percent, but this change has had
minimal effect on lowering overall staff costs.

        The section has not prioritized its work and allocated staff time to the highest priority
areas. It has not used cross-training to improve staff efficiency. The section needs to update its
essential tasks (such as social media), reduce time spent on other tasks, introduce cross-training,
reallocate work requirements, and eliminate positions. The embassy responded positively to the
OIG team’s counseling on these issues and is developing a plan to reduce staffing that would
save $300,000 annually.

Recommendation 4: Embassy Vienna should eliminate three local employee positions in the
public diplomacy section. (Action: Embassy Vienna)

        The section has had minimal contact with the other two U.S. diplomatic missions in
Vienna: UNVIE and USOSCE. Communication among the three missions is mainly an exchange
of information about programming that addresses similar audiences. Developing better
cooperation among the public diplomacy staffs of the three U.S. missions could generate cost
savings and create synergies that would multiply each mission’s efforts to influence opinion and
gain support for U.S. positions. The expanded use of social media, in particular, would both
enhance and benefit from tri-mission collaboration.

       Informal Recommendation 8: Embassy Vienna should consult at least quarterly with the
       U.S. Mission to International Organizations in Vienna and the U.S. Mission to the
       Organization for Security and Cooperation in Europe to identify areas where
                                               12
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

       collaboration, including the use of social media, can expand the reach of U.S. public
       diplomacy messages.

Exchange Programs

        The embassy’s long-standing and well-run exchange programs are the primary vehicle
for building enduring Austrian support for the United States. The Fulbright program, which
celebrated its 60th anniversary in Austria in 2010, is at the center of a well-conceived exchange
program. The Bureau of Educational and Cultural Affairs rates the bilateral Fulbright
Commission in Austria as one of the best managed in Europe. Its highly regarded U.S. executive
director has been instrumental in enlisting private partner individuals and institutions. These
partners have helped secure nontraditional funding streams that have maintained annual grant
funds at a healthy $1 million level over the past 5 years.

       The U.S. and Austrian Governments each contribute approximately 35 percent of the
Fulbright budget; private partners provide the remaining 30 percent. The private contributions
funded 18 grants in 2010–2011. The commission also manages a $2 million endowment from
former Marshall Plan funds. Cumulatively through 2010, approximately 3,500 Austrian and
2,250 U.S. citizens have participated in the Fulbright program. An Austrian Fulbright alumni
association, formed in 1994, currently numbers 400 members and sponsors various activities,
some in conjunction with the embassy.

        The Ambassador and the Austrian Minister of Science and Research take an active
interest in the commission’s work and are honorary cochairs of the commission board. Relations
between the embassy and the Fulbright Commission are excellent.

       The commission conducts significant, additional non-Fulbright exchange duties,
including administering one of the largest U.S. teaching assistant programs in the world. Since
1962, the program has placed almost 3,000 U.S. teaching assistants in the English language
teaching programs of Austrian secondary schools. In 2010, U.S. teaching assistants working in
every Austrian province taught about 40,000 secondary school students. A much smaller number
of Austrians taught German language studies in U.S. secondary schools.

       The Fulbright Commission conducts educational advising both in person at its office and
through a Web site that attracts 8,000 visits per month. The embassy provides no educational
advising, referring all inquiries to the commission.

        A modest International Visitor Leadership Program, which includes minority grants, is
closely tied to MSRP goals and objectives. The embassy used incentive grants and Washington
special funds to increase the numbers of programmed visitors by 50 percent above its initial
allotment in both FYs 2010 and 2011; it plans to do the same in FY 2012. The DCM chairs the
grants committee. All embassy sections nominate grant candidates and participate in the
selection process. The embassy maintains close contact with former grantees.

      Given current, austere budget realities, the embassy does exceptionally well in
augmenting cultural affairs programming by taking advantage of visiting U.S. artists to Austria.
The Ambassador and DCM regularly host musical events at their residences, featuring U.S.

                                         13
                             SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

artists. As noted earlier, these events enable embassy staff to cultivate local contacts in an
environment that Austrians prize, making it easier to discuss controversial subjects.

Grants Management

        An administrative assistant, who has completed the requisite grants training, maintains
the public diplomacy grant files. The files for FYs 2010 and 2011 are in reasonable order. Most
of the required documentation is present or in process. One fault, however, is the absence of the
mandatory DS-4012 Federal assistance file form, which comprehensively inventories grants
documentation. The administrative assistant had not prepared the form for any of the reviewed
grants, due to the mistaken belief that the form was required only for grants in excess of $10,000.
The section is correcting this error.

        The PAO and assistant PAO hold current, valid grant authority. In FY 2011, Embassy
Vienna issued 54 grants. The largest grant was for $10,000 and many grants were for amounts of
less than $1,000. It takes the same amount of time and effort to fully process a grant for $200 as
a grant for $10,000. There are no institutional grants that would cover multiple, small programs.
The staff handling grants management was unaware of fixed obligation grants, as described in
Grants Policy Directive 35 of the Office of the Procurement Executive. The fixed obligation
grants agreement is less complicated, and the closeout requirements are less cumbersome; a
memorandum from the grants officer representative can serve as the closeout documentation.

       Informal Recommendation 9: Embassy Vienna should review the merits of using fixed
       obligation grants in at least some of its smaller grants awards and provide guidance to the
       grants staff on how to process such grants.

American Resource Center

        The American Resource Center is the embassy’s Information Resource Center. It is not
open to the public generally, but its three local employees offer an array of online products. The
center handles social media applications that include the bilingual embassy Web site and various
social media platforms: Facebook, YouTube, Twitter, and Picasa (an image-organizing and
photo-sharing Web site). The center also maintains the Ambassador’s Twitter account, and its
staff consults regularly with other sections and agencies to elicit contributions for the embassy’s
social media sites.

        The section is just beginning to develop a strategy for increasing embassy representa-
tives’ direct involvement in the production of social media content. By judiciously evolving its
social media strategy, the section can increase content (interactive fora, contests, etc.) while not
outpacing its ability to respond to target audiences in a timely fashion. The embassy Web site
averages 30,000 hits daily. Austrians’ usage of social media platforms has doubled in the past
2 years. This compares favorably with six other European resource centers that are operating
under the general guidance of the regional information resource officer.

       Although the center serves as the lead agent for social media, it also provides information
services, such as delivering English language and U.S. studies materials to teachers in Austria.


                                           14
                               SENSITIVE BUT UNCLASSIFIED
                                        SENSITIVE BUT UNCLASSIFIED

The center also issues media alerts for the embassy and USOSCE employees and researches
topics on request from officers at the embassy and USOSCE.

        The center occasionally convenes with groups, such as Austrian teachers, as part of its
public reference service. The center is the conduit for all electronic inquiries to the embassy, and
employees archive all electronic messages from Austrian Government ministries. The public
diplomacy section has not evaluated the nature, number, and processing requirements of the
many types of inquiries the center handles; doing so would help the center determine how to
reduce the volume and range of inquiries and use staff more efficiently.

            Informal Recommendation 10: Embassy Vienna should make greater use of electronic
            links and frequently asked questions on its American Resource Center Web site to
            respond more efficiently to electronic inquiries.

        The University of Innsbruck hosts an American Corner, for which the embassy provides
an annual grant of $10,000. In 2011, the embassy restructured its partnership agreement with the
university and the Innsbruck Austro-American Society, increasing the university’s contribution.
At a modest cost to the U.S. Government, the American Corner is available for meetings and
other functions. The section is encouraging consular and other embassy officers to make more
frequent use of this U.S. public diplomacy platform.

Regional Information Resource Officer

        Embassy Vienna also hosts an information resource officer with regional responsibilities
for seven countries, including Austria. The PAO is the rating officer for this employee, while the
reviewer is a Bureau of International Information Programs supervisor. A separate regional
information resource office with three LE staff members reports directly to Washington. Both the
regional information resource officer and the separate information resource office are located in
the USOSCE building, and they report that the JMO provides satisfactory services. The regional
information resource office’s Washington supervisors requested that the JMO regularly update
them about the timetable and space planning issues related to JMO’s plans to relocate the office
into the new facility for USOSCE.

Consular Operations
          The consular section is well run but overstaffed. The quality of service is excellent, with
courteous treatment and minimal wait times. The wait time for visa appointments, for example,
is as little as 2 days. The first- and second-tour officers are involved in section management, and
local employees are knowledgeable and well trained.

Workload
       The section handled 10,685 nonimmigrant visa adjudications last year, a relatively light
workload. Nonimmigrant visas in Vienna are a mix of routine student and exchange visitor visa
applications by Austrians, plus a varied third-country national workload, complex E visa1 cases,
and an unusually large number of special visas for performers and other celebrities.
Appointments for nonimmigrant visa interviews are often available within 2 or 3 days. The

1
    Nonimmigrant Treaty Trader (E1) and Treaty Investor (E2) visas.
                                                    15
                                        SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED

     immigrant visa workload last year totaled 281 adjudications, which would occupy only a fraction
     of one officer’s and one LE staff member’s time. The American citizens services workload is
     varied, given the relatively large resident American population and the large numbers of U.S.
     tourists. That workload is ameliorated, to some extent, by the excellent social services and
     infrastructure in Austria.

     Rightsizing
             U.S. officer staffing is appropriate, but the nine local employees are more than the
     workload merits; elimination of one position would reap cost savings. One LE staff member
     works full time in the Federal benefits unit, an operation that is scheduled for closure at the end
     of FY 2012. There is also one eligible family member who works in American citizens services.
     At a minimum, the embassy could redirect the eligible family member position to an area of
     greater need in tri-mission offices when the incumbent departs post in 2012.

     Recommendation 5: Embassy Vienna should eliminate locally employed staff position N32250
     in the Federal benefits unit when that unit’s operations close in FY 2012. (Action: Embassy
     Vienna)

     Recommendation 6: Embassy Vienna should not fill the eligible family member position in the
     American citizen services unit when the incumbent departs. (Action: Embassy Vienna)

            The Bureau of Consular Affairs has explored consolidating some of the consular
     operations in Vienna and Bratislava to achieve efficiencies and reduce staffing. Given the
     comfortable staffing levels in Vienna and the ease of travel between the two cities, consolidation
     would be an appropriate way to achieve additional savings.

     Facility

            The section has been located in an annex to a U.S.-brand hotel since 1986. It shares a
     whole floor of the building with offices of the Drug Enforcement Administration and the
     Department of Homeland Security’s Citizenship and Immigration Services office. (b) (5)


            Problems that affect consular operations include (b) (5)

                            and lack of a privacy booth.
(b) (5)




                                               16
                                   SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED


(b) (5)




           Consular employees often need to discuss sensitive matters with applicants, but there is
    no place in the section to hold private discussions. (b) (5)
                                                                    The embassy needs to construct a
    privacy booth at one of the existing interview windows. The most likely location would be at the
    window on the far left of the hardline, as viewed from inside the consular workspace. The
    window is already enclosed inside the hardline and would need only to be enclosed on the
    waiting room side.

    Recommendation 9: Embassy Vienna should construct a privacy booth in the consular waiting
    room. (Action: Embassy Vienna)

    Internal Controls

            Internal controls function well. The OIG team observed that the section had strengthened
    its operational procedures during the inspection period (b) (5)




         There is little demand for visa referrals in Austria. During the inspection period, the
    Ambassador reissued the referral policy, which conforms to regulations.

            The consular chief is performing adjudication reviews as required by Department
    regulations (9 FAM 41.113 PN17 and 7 FAH-1 H-648.1-3). However, until July 2011, the DCM
    had not been performing regular reviews of the consular section chief’s cases. Between May 1,
    2010, and May 1, 2011, the DCM performed no reviews at all. Nevertheless, in a March 2011
    telegram (11 VIENNA 426), the DCM certified compliance with consular management controls,
    which includes performance of adjudication reviews. The DCM completed the reviews of the
    consular chief’s adjudications from July to October 2011. According to Department regulations
    (9 FAM 41.113 PN17 d.), the issuances must be reviewed without delay; that is, on the day of the
    issuance or as soon as is administratively possible. The failure to perform reviews in a timely
    manner indicates that the consular chief is not maintaining oversight over the visa adjudications,
    as required by regulations (9 FAM 41.113, PN7).

    Recommendation 10: Embassy Vienna should implement a schedule for the deputy chief of
    mission to perform regular reviews of the consular section chief’s nonimmigrant visa adjudications.
    (Action: Embassy Vienna)

            There is a problem with the machine readable visa fee comparison. The section chief has
    been performing the procedure correctly (per 7 FAH-1 H-744.2), but the comparison shows a
    deficit, with more visas processed than fees collected. This discrepancy may be caused in part by
    the fact that the bank has been deducting its charges from the total it transfers to the embassy

                                             17
                                 SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

account. According to 7 FAH-1 H-752 b., banks may not deduct their fee from the machine
readable visa fees received but must deposit the full amount of fees collected to the U.S.
Government account. The financial management officer will correct the bank’s practice in this
regard. This change may address the discrepancy, but it will be important to confirm that the
problem is resolved.

Recommendation 11: Embassy Vienna, in coordination with the Bureau of Consular Affairs,
should resolve the discrepancy in the machine readable visa fee comparison. (Action: Embassy
Vienna, in coordination with CA)

        The agreement with a commercial bank for off-site, machine readable visa fee collection
has not been updated since it was first signed in 1996. The existing agreement does not detail the
entire collection process and should be replaced by an agreement that is in compliance with
7 FAH-1 H-752 b. The lack of an updated, clear agreement contributes to the problem with the
comparison of machine readable visa fees, because the existing agreement does not comply with
this regulation’s guidance regarding the nondeduction of bank charges.

Recommendation 12: Embassy Vienna should negotiate a new agreement for managing
consular fees with the collecting bank. (Action: Embassy Vienna)

Visa Waiver Program

        As a member of the Visa Waiver Program, Austria is subject to reviews every 2 years by
the Department of Homeland Security. In other Visa Waiver Program countries, the consular
chief is the point of contact for the Department of Homeland Security in managing those
reviews. At Embassy Vienna, the point of contact is in the political/economic section. The
consular section is more appropriate for the handling of visa waiver issues.

       Informal Recommendation 11: Embassy Vienna should designate the consular chief as
       the point of contact for the Department of Homeland Security on all issues related to the
       Visa Waiver Program.




                                         18
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Resource Management
                                                              Locally                     Total
                            U.S. Direct-       U.S. Local-                  Total
          Agency                                             Employed                    Funding
                             Hire Staff        Hire Staff                   Staff
                                                               Staff                     FY2011

 Department of State
 Diplomatic and Consular
                                      104              10           20         134       $7,584,825
 Programs
 Diplomatic and Consular
                                           0            0               0           0      $69,350
 Program Representation
 ICASS                                 13               9          128         150      $15,572,200
 Public Diplomacy                          2            1           16          19       $2,840,412
 Public Diplomacy
                                           0            0               0           0      $14,000
 Representation
 Diplomatic Security                       7            0           23          30      $1,705, 246
 Marine Security                       14               0               0       14        $108,460
 Global Publishing
                                           0            0               2           2     $305,000
 Solutions
 Bureau of Overseas
                                           1            0               0           1     $159,515
 Buildings Operations
 Broadcasting Board of
                                           0            0               2           2         N/A
 Governors
 Department of
                                           1            0               4           5     $413,933
 Agriculture
 Department of Defense                     9            0               4       13        $802,405
 Department of Justice                     9            0               0           9         N/A
 Department of Homeland
                                           5            0               5       10        $308,737
 Security
 Foreign Commercial
                                           1            0               6           7     $969,949
 Service
 Open Source Center                        4            0           34          38             N/A
 Totals                               170              20          244         434      $30,854,032


        Embassy Vienna’s JMO is the service provider for the tri-mission. Management issues
are discussed in the previously mentioned 2012 OIG Tri-Mission Vienna JMO report.

Restaurant Facility

        Since September 2009, the embassy has licensed a chef to provide food service in the
chancery’s restaurant facility. The licensing agreement extends to October 15, 2013. The
restaurant is attractive, and the food is well prepared. The OIG team noticed that some food
prepared in the chancery’s basement kitchen was not on the menu and not served in the chancery
restaurant. According to restaurant staff, this food was destined for the chef’s public restaurant.
The public restaurant’s Web site also had a picture of the present Ambassador to Vienna with an
endorsement of the chancery restaurant. This juxtaposition created an implication that the
Ambassador was endorsing the public restaurant.
                                          19
                              SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

        With guidance from the OIG team, the JMO discussed these issues with the licensee, who
agreed to stop using the chancery’s basement kitchen to prepare food for his public restaurant
and immediately removed the Ambassador’s photograph and endorsement from the public
restaurant Web site.

Recommendation 13: Embassy Vienna should develop standard operating procedures and
implement a schedule to monitor use of the chancery’s basement kitchen and embassy equipment to
ensure compliance with the requirements specified in the licensing agreement. (Action: Embassy
Vienna)




                                        20
                            SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


International Broadcasting Bureau’s Technical Monitoring
Office
       The International Broadcasting Bureau (IBB) maintains a technical monitoring office in
Vienna, with two local employees. The office monitors IBB broadcasts in an area ranging from
Central Asia to Western Europe, the Middle East, and Africa. The office checks signal strength,
outside interference from other country broadcasts, and equipment malfunctions by using
computerized monitors. The employees make, on average, two to four trips each year to
monitored sites outside Austria to repair and replace IBB equipment.

        The IBB employees are under the direct supervision of IBB headquarters in Washington,
which provides all program direction and technical support. The IBB employees report that the
JMO provides satisfactory services, predominantly for human resources-related issues. The
Vienna operation is one of four IBB monitoring stations overseas. Although IBB has explored
alternate locations and has considered hiring monitors in Africa and the Middle East, officials in
IBB headquarters told the OIG team that the Vienna operation remains the most financially and
operationally effective option, even compared to moving monitoring operations to Washington.




                                          21
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: Embassy Vienna should implement a plan to provide first- and second-
tour officers and specialists with regular mentoring sessions and well-defined opportunities to
gain experience with government-to-government relations, support official visits, speak in public
fora, produce written reports, and participate in representational events. (Action: Embassy
Vienna)

Recommendation 2: Embassy Vienna should eliminate position number N21010 in the
political/economic section when the incumbent retires. (Action: Embassy Vienna)

Recommendation 3: The Bureau of Population, Refugees, and Migration should conduct a
cost-benefit analysis to determine whether position number 13001037 should be moved to a
location from which refugee processing in Europe and the countries of the former Soviet Union
could be accomplished more effectively and less expensively than at Embassy Vienna. (Action:
PRM)

Recommendation 4: Embassy Vienna should eliminate three local employee positions in the
public diplomacy section. (Action: Embassy Vienna)

Recommendation 5: Embassy Vienna should eliminate locally employed staff position
N32250 in the Federal benefits unit when that unit’s operations close in FY 2012. (Action:
Embassy Vienna)

Recommendation 6: Embassy Vienna should not fill the eligible family member position in
the American citizen services unit when the incumbent departs. (Action: Embassy Vienna)

Recommendation 7: (b) (5)


Recommendation 8: (b) (5)




Recommendation 9: Embassy Vienna should construct a privacy booth in the consular waiting
room. (Action: Embassy Vienna)

Recommendation 10: Embassy Vienna should implement a schedule for the deputy chief of
mission to perform regular reviews of the consular section chief’s nonimmigrant visa
adjudications. (Action: Embassy Vienna)

Recommendation 11: Embassy Vienna, in coordination with the Bureau of Consular Affairs,
should resolve the discrepancy in the machine readable visa fee comparison. (Action: Embassy
Vienna, in coordination with CA)

Recommendation 12: Embassy Vienna should negotiate a new agreement for managing
consular fees with the collecting bank. (Action: Embassy Vienna)
                                         22
                             SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 13: Embassy Vienna should develop standard operating procedures and
implement a schedule to monitor use of the chancery’s basement kitchen and embassy equipment
to ensure compliance with the requirements specified in the licensing agreement. (Action:
Embassy Vienna)




                                       23
                           SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


List of Informal Recommendations
Informal recommendations cover operational matters not requiring action by organizations
outside the inspected unit and/or the parent regional bureau. Informal recommendations will not
be subject to the OIG compliance process. However, any subsequent OIG inspection or on-site
compliance review will assess the mission’s progress in implementing the informal
recommendations

Informal Recommendation 1: Embassy Vienna should make greater use of the State
Messaging and Archive Retrieval Toolset record email function.

Informal Recommendation 2: Embassy Vienna should provide locally employed staff with the
unclassified portions of transmitted classified cables that contain text that locally employed staff
members have drafted.

Informal Recommendation 3: Embassy Vienna should eliminate the political/economic
section’s subscription to the Austrian Press Agency.

Informal Recommendation 4: Embassy Vienna should incorporate the international vetting
and security tracking system user’s guide into its procedures for Leahy vetting and train the
designated officers responsible for Leahy vetting on use of this database.

Informal Recommendation 5: Embassy Vienna should present its case to the Bureau of
European and Eurasian Affairs and the Bureau of Human Resources for continuing to fund the
professional associate position.

Informal Recommendation 6: Embassy Vienna should distribute to law enforcement working
group members the minutes of monthly meetings.

Informal Recommendation 7: Embassy Vienna should develop a yearly schedule of public
diplomacy activities based on topics, audiences, and institutions that have the highest priority.

Informal Recommendation 8: Embassy Vienna should consult at least quarterly with the U.S.
Mission to International Organizations in Vienna and the U.S. Mission to the Organization for
Security and Cooperation in Europe to identify areas where collaboration, including the use of
social media, can expand the reach of U.S. public diplomacy messages.

Informal Recommendation 9: Embassy Vienna should review the merits of using fixed
obligation grants in at least some of its smaller grants awards and provide guidance to the grants
staff on how to process such grants.

Informal Recommendation 10: Embassy Vienna should make greater use of electronic links
and frequently asked questions on its American Resource Center Web site to respond more
efficiently to electronic inquiries.

Informal Recommendation 11: Embassy Vienna should designate the consular chief as the
point of contact for the Department of Homeland Security on all issues related to the Visa
Waiver Program.
                                          24
                              SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED




Principal Officials
                                                   Name               Arrival Date
Ambassador                                         William Eacho           08/2009
Deputy Chief of Mission                            Christopher Hoh         06/2009
Chiefs of Sections:
  Administrative                                   Margaret Uyehara       08/2010
  Consular                                         Heather Guimond        08/2009
  Political/Economic                               Shawn Crowley          07/2010
  Public Affairs                                   Jan Krc                09/2010
  Regional Security                                Mary-Jo Swinimer       03/2011
  Political/Multilateral                           Gerald Hamilton        08/2011
Other Agencies:
  Department of Defense, Defense Attaché Office    COL Ulises Soto        08/2008
  Department of Defense, Military Liaison Office
   Office of Defense Cooperation                   LTC Chad Lemond        08/2010
  Foreign Commercial Service                       Thomas Brennan         08/2011
  Department of Justice, Legal Attaché Office      Stephen Gaudin         03/2010
  Department of Justice, Drug Enforcement
  Administration                                   Ira Israel             10/2006
  Department of Homeland Security,
   Citizenship and Immigration Services            Pamela Hutchings       09/2010
  Department of Homeland Security,
   Immigration and Customs Enforcement             James Plitt            05/2008
  Open Source Center                               John Tullius           07/2011
  International Broadcasting Board                 Peter Ungerboeck       02/1977




                                       25
                           SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
DCM             Deputy chief of mission
Department      U.S. Department of State
EEO             Equal Employment Opportunity
EU              European Union
IBB             International Broadcasting Bureau
JMO             Joint management office
LE              Locally employed
MSRP            Mission Strategic and Resource Plan
NATO            North American Treaty Organization
PAO             Public affairs officer
UNVIE           U.S. Mission to International Organizations in Vienna
USOSCE          U.S. Mission to the Organization for Security and Cooperation in
                Europe




                            26
                SENSITIVE BUT UNCLASSIFIED
   SENSITIVE BUT UNCLASSIFIED




FRAUD, WASTE, ABUSE,
OR MISMANAGEMENT
of Federal programs hurts everyone.




           Contact the
   Office of Inspector General
          HOTLINE
to report illegal or wasteful activities:



             202-647-3320
             800-409-9926


         oighotline@state.gov


             oig.state.gov


      Office of Inspector General
       U.S. Department of State
            P.O. Box 9778
        Arlington, VA 22219




   SENSITIVE BUT UNCLASSIFIED
